<html>
<title> - THE U.S. REBALANCE IN SOUTH ASIA: FOREIGN AID AND DEVELOPMENT PRIORITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   THE U.S. REBALANCE IN SOUTH ASIA: 
                 FOREIGN AID AND DEVELOPMENT PRIORITIES

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-29

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-911 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nisha Desai Biswal, Assistant Secretary, Bureau of 
  South and Central Asian Affairs, U.S. Department of State......     7
The Honorable Jonathan Stivers, Assistant Administrator, Bureau 
  for Asia, U.S. Agency for International Development............    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nisha Desai Biswal: Prepared statement.............    10
The Honorable Jonathan Stivers: Prepared statement...............    28

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia:
  Material submitted for the record..............................    48
  Prepared statement.............................................    49

 
                   THE U.S. REBALANCE IN SOUTH ASIA:
                      FOREIGN AID AND DEVELOPMENT
                               PRIORITIES

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. Good morning. The subcommittee will come to 
order. I would like to thank our distinguished witnesses, 
Assistant Secretary Nisha Biswal and Assistant Administrator 
Jonathan Stivers for coming here this morning. Thank you very 
much.
    This hearing was called to assess the Fiscal Year 2016 
State Department and U.S. Agency for International Development 
budget requests for the South Asia region. Today I would like 
to focus on how U.S. funds support the health of South Asia's 
democratic institutions, the strength of economic development 
in the region, and the management of the latent security 
concerns.
    The relationship between the United States and countries in 
South Asia concerning those issues is very ripe for 
cooperation. Robust relations with South Asian countries would 
significantly bolster our rebalance to Asia. However, the 
region also faces some significant economic, security and human 
rights challenges.
    To start, Bangladesh continues to face severe political 
challenges with in-fighting between Bangladesh National Party 
and the Awami League which has begun to impede on development 
and citizens' livelihoods. India must address development 
challenges for a significant part of its population with over 
300 million Indians still living without electricity.
    During our trip to India, the Prime Minister was noted for 
saying let us build toilets instead of temples, showing what a 
serious development it is in that region of the world. There is 
about a quarter of the Indian population that don't have 
electricity. The Maldives is increasingly a hub for foreign 
fighters and religious extremism, yet the issue goes unnoticed.
    The United States uses limited resources to assist South 
Asian nations, facilitating their democratic infrastructure and 
economic development. Despite the region's shifting 
geopolitical landscape, increasingly complex security outlook, 
lingering human rights issues and enduring obstacles in 
development, U.S. foreign assistance in South Asia has actually 
fallen by 48 percent, from $2.2 billion to $1.1 billion not 
including food aid between Fiscal Year 2012 and the requested 
budget for 2016. I implore our distinguished witnesses to 
explain whether the United States is doing enough and whether 
our limited funding to the region could be better utilized.
    The administration requested $168 million for assistance in 
Bangladesh in Fiscal Year 2015 and the request for Fiscal Year 
2016 is $172 million, an almost 2.5 percent increase. The vast 
majority of our aid dollars go to Bangladesh yet we see little 
improvement in living and working conditions, especially in the 
provision of social services. I worry that the instability 
caused from the rivalry between the two major political parties 
has disrupted our aid efforts. I hope that Assistant Secretary 
Biswal and Assistant Administrator Stivers will be able to 
explain how our contributions would be best used in Bangladesh.
    India is a country of vast opportunity for collaboration on 
development, trade and defense. It is the world's largest 
democracy and it is indeed an increasingly important partner in 
maintaining regional peace and stability.
    I visited, as I mentioned, India earlier this month and I 
was really, really impressed with many of the reforms that are 
being spoken of by the Prime Minister, and I am very hopeful 
that things in India will significantly improve and it will be 
a much more robust economy. Of course they have to have a lot 
larger growth rate to accommodate the, what is it, about 1 
million new jobs a month? Pretty significant. I look forward to 
staying extremely engaged with India as the country continues 
to pursue their aggressive agenda of economic and 
infrastructure development.
    I am concerned however about the treatment of women and 
minorities. In particular I am concerned that the government 
has been suppressing discourse about women's rights. The Indian 
Government was reported to have censored a BBC documentary 
about the gang rape of a 23-year-old Delhi woman. It is 
particularly disturbing to our principles of free speech and 
women's rights. I would like to know whether our administration 
has brought this up with the Indian Government. That was quite 
a topic of conversation while we were there. I believe it was 
called ``India's Daughter.''
    There is not enough attention paid to the Maldives, a 
democratic nation of many small islands but one that sits in 
the middle of key shipping lanes in the region. While maritime 
traffic flows past the Maldivian islands, maritime security is 
of major concern due to political threats posed by narcotics 
trafficking, piracy in the Indian Ocean and potential seaborne 
terrorist activity.
    Further reports of growing extremism greatly concern me. 
Why are the Maldive's serving as a hub for the recruitment of 
religious extremists? How are we addressing these grave 
concerns to our international stability and our national 
security?
    The newly elected Sri Lankan President Sirisena recently 
stated he will revisit deals signed with China by his 
predecessor President Rajapaksa. With increased trade and 
investment between the two countries, Sri Lanka risks being 
wooed by China through major investment and infrastructure 
construction initiatives. I would like to know what we can do 
to ensure that Sri Lanka does not become dependent on China for 
development and what we can do to assist the new government in 
addressing domestic, economic and development challenges. The 
requested budget must focus on promoting more democratic and 
accountable governance, promoting sustainable economic 
development and opportunities for trade and commerce in the 
region.
    Other countries, Bhutan and Nepal, are also extremely 
important to our efforts in South Asia and I hope today's 
witnesses will be able to address them as well. I look forward 
to hearing from our distinguished witnesses this afternoon, and 
I now yield to Mr. Sherman, the ranking member of the 
subcommittee, for his opening remarks.
    Mr. Sherman. Thank you, Mr. Chairman. It is entirely 
appropriate that we have these hearings focusing on an area 
with almost 2 billion people and an area in where almost half 
those people are under 25.
    Our witnesses focus on all of the countries of South Asia 
with the--what should we say--shared jurisdiction with regard 
to Pakistan, and I know our subcommittee includes all of South 
Asia. There are special both aid and diplomatic authorities to 
deal with Pakistan and Afghanistan and maybe we would hold 
joint hearings looking at those two countries together. Maybe 
next year we will make your Pakistan/Afghanistan counterparts 
do double duty and come before us as well as the other 
subcommittee.
    As to India, I think it will go down in world history to 
have an election in which 553 million people cast ballots as 
occurred in April and May of last year. India is one of our 
most important strategic and geopolitical partners, many 
important issues face the country, and I look forward to 
hearing from our witnesses.
    As to economic relations, Ms. Biswal, you have testified 
before, before our subcommittee, about the importance of 
negotiating a bilateral investment treaty between our country. 
In joint statements that have come out, President Obama's visit 
to India in January, there is further talk of this treaty.
    Now, right now our trade is about $100 billion in goods and 
services and we are already running a $30-billion trade 
deficit, 30 percent. I am interested in how the administration 
isn't just going to have more trade but more balanced trade. 
Very executive agencies of our Government have occasionally 
testified that if you could increase American trade by having 
$1 billion of new exports and $2 billion of new imports that 
that was wonderful. Three billion dollars in trade. The fact 
is, unbalanced trade means we lose jobs, and I join the Vice 
President in a goal of $500 billion of bilateral trade, 250 and 
250.
    One element of this is the U.S.-India nuclear cooperation 
agreement. When we voted in favor of that we were told that 
India would open up its market to U.S. companies by making the 
necessary changes in its liability laws. To date I am not sure 
they have done that and I look forward to hearing from our 
witnesses. I would hate to think that we voted for that 
agreement believing certain things that didn't turn out to be 
true and then we are being given another agreement to vote on.
    As to Bangladesh, the democratic process is weak. One third 
of the people live in extreme poverty. The two matriarchs fight 
over power. One of the dominant parties boycotted the elections 
altogether, and I look forward to you solving that problem 
easily in the next few months.
    And of course when we focus on Bangladesh we need to focus 
on labor and working conditions. So many of us see their 
products in our stores. I know that there is some progress, 
some 200 labor unions have been established, a number of unsafe 
factories have been closed down. But then 2 weeks ago a roof 
collapses on another Bangladeshi factory and we are left with 
many dead and injured.
    As to Sri Lanka we saw a real test of a democracy. And the 
greatest test of a democracy is when one party is voted out, 
another party is voted in, the party that is voted in actually 
takes power. The new President's soon to be empowered 
Parliament have to resolve a lot of human rights issues growing 
out of the 26-year-long civil war.
    I understand our 2016 budget was drawn up before the 
surprise elections. Now hopefully we will be able to help the 
new President with truth and reconciliation, and the new 
government of course faces the possibility of nonconstitutional 
attack from both the former President but more importantly 
perhaps the former President's brother, former Defense Minister 
who was implicated in certain unwarranted and tragic instances 
at the end of the civil war.
    So I see that the new President is open to trials taking 
place in Sri Lanka, and they might do more to heal the country 
than the trials taking place at the International Criminal 
Court or some other far-off land. I have got wonderful 
paragraphs written by a brilliant staff about Nepal, but my 
time has expired and I yield back.
    Mr. Salmon. Thank you.
    Mr. Connolly, did you have an opening statement?
    Mr. Connolly. Thank you, Mr. Chairman.
    I want to welcome both of our witnesses. And I think, Mr. 
Stivers, this is your first. This is your debut on that side of 
the table so we have to be gentle.
    And Ms. Biswal, let the record show you represent our 
Government. There seemed to be some confusion about that in the 
past. It is great to have you both here.
    One of the things I hope we get a chance to hear from you 
is, I am interested in efficacy of foreign economic, of our 
economic assistance. We have been in South Asia a long time, 
and to what extent can we correlate the investments we have 
made over the decades with metrics that matter like GDP, the 
rise out of poverty, infant mortality or survivability, food 
production, job growth and the like, or is it just an 
incidental that has helped make things better marginally?
    I think that is critical to this question, because how does 
aid play a role in our foreign policy in this corner of the 
world, especially the title of our hearing is The U.S. 
Rebalance in South Asia? Well, is economic assistance a 
critical tool as part of that rebalancing? What is that 
rebalancing? What is the role that aid is going to play and how 
does it make people's lives better? And how do the recipients 
of this investment by the U.S. taxpayer know about it? Do they 
make the connection that their lives are improving because of 
this investment the American people have made?
    And I would be very interested in that because we have been 
at this game a long time, and I do believe that actually there 
are such metrics but I don't think we always do as good a job 
in the narrative as we should which affects support here for 
those investments. And if we are going to sustain them and 
maybe even build upon them, I think we have to have a 
compelling narrative and we have got to have metrics that are 
compelling as well.
    So I look forward to your testimony in setting that 
context. And I am going to be in an out because I have another 
hearing as well, but I will be following what you say. At any 
rate, thank you, and Mr. Chairman, thank you for the time.
    Mr. Salmon. Thank you.
    Ms. Meng, did you have a statement?
    Ms. Meng. Thank you, Mr. Chairman and Ranking Member 
Sherman. Good morning and welcome, Assistant Secretary Biswal, 
and a special welcome to Assistant Administrator Jonathan 
Stivers. I am pleased to have this opportunity to explore the 
importance of South Asia and the President's budget and the 
rebalance to Asia.
    My district in Queens, New York, is home to a vibrant South 
Asian community with residents from all over the subcontinent, 
but especially India, Bangladesh, Nepal and Sri Lanka. In fact, 
the U.S. is home to well over 3.4 million South Asian-
Americans, and this rapidly growing population has only aided 
in improving ties between the U.S. and the region.
    The increase in bilateral cooperation between the U.S. and 
India, the latest anti-corruption and unifying policies of the 
new President of Sri Lanka, these are points to celebrate. But 
right now what I find most urgent is the continuing violence in 
Bangladesh. I will come back to this point when we have time 
for questions later in the hearing.
    Thank you, I yield back.
    Mr. Salmon. Thank you.
    Mr. Bera, did you have some comments?
    Mr. Bera. I will share my quick opening statement. I had, 
one, it is great to see both of you here, and as my colleague 
from Virginia said, we will take it easy on you, Mr. Stivers, 
today.
    I had the privilege of going with Chairman Salmon to India 
a few weeks ago on a trip led by the chairman of the full 
committee Mr. Royce. And this is on the heels of the 
President's visit to India in January. So there is a general 
sense of optimism and the potential here, but there is also, 
obviously there are challenges as well.
    We had a chance to visit with the Prime Minister again and 
many of his cabinet members, so from the Prime Minister's 
agenda our sense is he clearly does want to see this 
partnership grow. And you have seen some positive pieces of 
legislation like the raising of the FDI caps on insurance that 
really can have a tremendous benefit to allowing foreign 
investment to flow into India to help the Prime Minister reach 
his pretty ambitious goals.
    Also when we were on the ground in New Delhi we were able 
to see some of USAID's work firsthand visiting the Vivekananda 
Slums and looking at some of the work that they are doing on 
the ground to address issues of sanitation, clean water, 
empowering local communities, and really talking to the staff 
on the ground and talking to some of the folks within the 
Indian administration.
    You are moving India from being a donor recipient country 
to a country that is actually then going into places like 
Afghanistan, going into some of the countries in Africa and 
becoming a donor nation as well and helping that development. 
And I think that is a real success story for USAID to help 
India develop its own capacity to be a donor nation.
    So I look forward to the testimony, and again look forward 
to continuing this momentum on the U.S.-India partnership.
    Mr. Salmon. Thank you.
    Ms. Gabbard, did you have some comments?
    Ms. Gabbard. Thank you, Mr. Chairman, very briefly.
    Welcome back and welcome, good to see you both here. As we 
look toward this focus in rebalance toward the Asia Pacific it 
is impossible to talk about this without talking about South 
Asia, so this focus of the hearing today is so critical.
    As we look around the world at different hotspots and 
different areas of concern and emerging and growing threats, I 
think the relative stability overall that we see in the region, 
I think, comes from the fact that there is this proactive 
engagement from a strategic sense, from a cultural sense as 
well as an economic sense, and I think that is connecting each 
of these three things.
    Connecting our people, our businesses, our militaries is 
what is critical for us as we look at moving forward and really 
building this strong partnership. Obviously the India-U.S. 
relationship and really growing friendship is one of the most 
important elements of this, so I look forward to hearing from 
you today. Thank you.
    Mr. Salmon. Thank you. And before I introduce the panelists 
I would like to acknowledge the Ambassador from Bangladesh 
Mohammad Ziauddin, wonderful to have you here today, sir.
    I would like to introduce our two distinguished panelists. 
First of all, Assistant Secretary Bureau of South and Central 
Asian Affairs Nisha Biswal was sworn in as Assistant Secretary 
of State for South and Central Asian Affairs on October 21st, 
2013. Prior to this she served from September 2010 as Assistant 
Administrator for Asia at USAID where she oversaw $1.2 billion 
in assistance to 22 countries from Central Asia to the Pacific 
Islands and managed a bureau and overseas staff of over 1,200 
development professionals.
    She has served as the majority clerk for the House 
Appropriations Committee Foreign Operations Subcommittee and 
professional staff in the House Foreign Affairs Committee where 
she was responsible for South Asia. So it is wonderful to have 
you.
    And that is what the threat of commonality is because our 
next panelist Jonathan Stivers currently serves as the USAID 
Assistant Administrator of the Asia Bureau and oversees a 
budget of over $1.8 billion in assistance to 32 countries in 
South Asia, Central Asia, East Asia and Pacific Islands and 
manages a bureau and overseas staff of approximately 1,200 
development professionals, and prior to that he served as 
senior advisor to the Speaker of the U.S. House of 
Representatives and Democratic leader Nancy Pelosi.
    And we are just thrilled to have you both on that side of 
the table today and very interested in everything that you have 
to say. And we will start with you, Ms. Biswal.

   STATEMENT OF THE HONORABLE NISHA DESAI BISWAL, ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Biswal. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Sherman, members of the subcommittee, thank you for 
inviting me to testify today. I appreciate the very important 
role that this committee plays in shaping U.S. policy. Before I 
begin I ask that my full statement be entered into the record 
and I will summarize my comments.
    Mr. Salmon. Without objection.
    Ms. Biswal. Thank you.
    I am especially thrilled to be here with my good friend and 
colleague and fellow House staff alumnus Jon Stivers. I am also 
very pleased, Mr. Chairman, that you have chosen to frame 
today's hearing as the U.S. Rebalance to South Asia.
    President Obama has clearly stated why our strategic 
interests in the Indo-Pacific are so clear and compelling. As 
the world's fastest growing region, the coming decades will 
increasingly show that America's security and prosperity will 
be linked to that of Asia.
    Mr. Chairman, in your district alone demand from Asia 
supports 34 percent of export-related jobs and accounts for 30 
percent of total exports, worth over $\1/2\ billion per year. 
And South Asia, with nearly 2 billion people, an 
entrepreneurial culture, and a resurgent Indian economy at its 
center, will play a large role in shaping the Asian narrative 
in the decades to come.
    But in order for the region to achieve its potential, 
countries must grapple with the myriad challenges that impede 
progress. Democratic governance is fragile in a number of 
countries and must be strengthened. Burgeoning youth 
populations, increasing urbanization, and environmental 
stresses must be addressed to create sustainable and inclusive 
economic growth.
    The President's budget request for South Asia, at just over 
$383 million, enables us to partner with governments, 
businesses, civil society and security forces to address 
challenges and to unlock opportunities for the region's people 
and for the American people.
    While my testimony does not cover Afghanistan and Pakistan, 
I do oversee the broad areas of regional cooperation and 
connectivity between those two countries and the rest of South 
and Central Asia. And while South Asia boasts some of the 
world's fastest growing economies, regionally it is one of the 
least economically integrated, so our regional initiatives are 
focused on helping connect the countries of South Asia not just 
to each other but also to Central Asia, through our New Silk 
Road initiative, and to Southeast Asia, through the Indo-
Pacific Economic Corridor. We work to promote the virtuous 
networks of trade and commerce, but we also work to inhibit the 
vicious networks of violence and crime, of terrorism and 
narcotics and human trafficking.
    Mr. Chairman, the primary economic engine in South Asia is 
India, where our bilateral relationship is stronger than ever. 
President Obama's historic visit during Republic Day was a 
great success, not only because of the symbolism of being the 
first U.S. President invited to be India's chief guest on 
Republic Day, but also for the very substantial outcomes that 
his interactions with Prime Minister Modi produced in four key 
areas--advancing our strategic partnership to address common 
goals, enhancing our security cooperation, deepening our 
economic ties, and increasing cooperation on clean energy and 
climate goals. These specific outcomes are elaborated in my 
written testimony, but we are very focused now on 
implementation and operationalization of these outcomes.
    The political transition in Sri Lanka, as you mentioned, 
Mr. Chairman, has also opened up new possibilities in that 
bilateral relationship. We strongly support the new 
government's focus on strengthening the country's democratic 
institutions, rebuilding its economy, and pursuing meaningful 
and lasting reconciliation.
    In Bangladesh, we see the potential for a modern, 
prosperous, strong and inclusive country. As the world's top 
contributor of peacekeeping forces, it is bringing stability to 
countries around the globe. And our assistance programs there 
have yielded some of the best returns on investment, addressing 
some of the points, Mr. Chairman, that you raised and that Mr. 
Connolly raised about the efficacy of U.S. assistance. Yet the 
political stalemate and continuing violence in Dhaka have taken 
a real toll on the people and the economy. We have underscored 
to opposition parties the need to curb violent protest while at 
the same time we have strongly urged the government to provide 
space for peaceful protest, to expand press freedoms, and to 
create an inclusive political process.
    With respect to labor, nearly 2 years after the collapse of 
Rana Plaza, Bangladesh has made important progress on labor 
safety, especially in the number of inspectors trained and 
buildings inspected. But for all the progress that we have 
seen, we have not seen the lasting change in attitudes, 
enforcement, and incentives that will bring Bangladesh in line 
with international labor standards, so that work continues.
    Mr. Chairman, in Nepal, after decades of conflict and 
insurgency, the country is on the cusp of creating an inclusive 
constitution that guarantees fundamental rights to all of its 
people--if all sides can compromise to support a consensus 
based approach. We are supporting that democratic transition 
and its economic development while also partnering on security 
cooperation focused on strengthening Nepal's significant 
contribution to U.N. peacekeeping operations.
    Lastly, Mr. Chairman, the two smallest democracies, 
Maldives and Bhutan. As you noted, in Maldives we have an 
important but small program focused on counter terrorism and 
violent extremism, as well as on climate change, and the 
bilateral relationship had been on a positive glide path. 
However, we are deeply concerned about recent events, including 
last week's conviction and sentencing of former President 
Nasheed. Bhutan is a country with which we have very warm ties, 
and we seek new ways to support that government's very strong 
commitment to preserving its environment through regional 
programs focused on clean energy and biodiversity.
    Let me conclude, Mr. Chairman, by reiterating that the 
security and the prosperity of the United States increasingly 
will be tied to the security and prosperity of Asia. The United 
States can and must play a leading role in shaping and 
supporting that region's stability and growth in the decades to 
come. Thank you Mr. Chairman, I look forward to your questions.
    [The prepared statement of Ms. Biswal follows:]
    
       
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Mr. Stivers?

    STATEMENT OF THE HONORABLE JONATHAN STIVERS, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Stivers. Chairman Salmon, Ranking Member Sherman, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify today on advancing our foreign policy 
goals in South Asia. Before I begin I would like to request 
that my full statement be entered in the record.
    Mr. Salmon. Without objection.
    Mr. Stivers. Having worked in the House of Representatives 
for the past 18 years, it is a real honor to be here especially 
alongside my friend and colleague Assistant Secretary Nisha 
Biswal.
    Through the President's budget request of $383 million for 
South Asia, we will continue our efforts as responsible 
stewards of taxpayer dollars to end extreme poverty and promote 
resilient democratic societies while advancing our own security 
and prosperity.
    USAID expands stable, free societies that provide lasting 
alternatives to otherwise destabilizing forces. At the same 
time we create new markets and trade partners, promote 
democratic values and foster goodwill abroad all with less than 
1 percent of the Federal budget.
    Our approach at USAID is threefold. First, we are 
institutionalizing USAID's new model of development which 
leverages public-private partnerships, local solutions, science 
and innovation to do more with less. In the past 5 years USAID 
has made great strides, going from just 8 percent of resources 
programmed through this new model to 40 percent.
    While my responsibilities do not include Afghanistan and 
Pakistan, we are focused on building regional solutions to 
increase stability and economic integration including expanded 
regional connectivity between South and Central Asia and 
Afghanistan and Pakistan especially in the areas of trade and 
energy.
    Second, we are building pathways out of poverty through the 
Global Health Initiative, Feed the Future, and the Global 
Climate Change Initiative. USAID is working to improve health 
systems and outcomes, increased food security, and help 
communities adapt to, mitigate and manage the risks of a 
changing environment.
    And third, we are promoting democratic governance and 
empowering reformers because we know that government by the 
people offers the best chance for freedom and prosperity. 
Fighting poverty is often less a question of funding but in 
effectively addressing the underlying governance challenges 
that hold countries back from realizing their full potential, 
and a strong and vibrant civil society is central to any 
healthy democracy.
    In India, renewed commitments by President Obama and Prime 
Minister Modi have given weight to new momentum and heightened 
engagement. It is a new day on our bilateral relationship, but 
it has already been a new day in how we administer our 
assistance in India. We have transformed our partnership with 
India from a donor-recipient relationship to a peer-to-peer 
partnership that harnesses the strengths and capabilities of 
both countries to jointly tackle development challenges. We are 
leveraging more resources than ever from Indian partners while 
also drawing on American private sector expertise.
    Today is World TB Day and USAID is combating the spread of 
TB with state-of-the-art technology from California that is 
really a gamechanger in the fight against multidrug resistant 
tuberculosis globally. USAID is collaborating with American and 
Indian partners including the Gates Foundation to provide clean 
water and sanitation services to low income populations in 
India's largest urban centers. And we are also deepening our 
engagement with partners to support women's empowerment in 
combating gender violence.
    Last, we continue our efforts with the Indian Government to 
support the Tibetan refugee community which really represents 
the best of our shared values with India.
    In Bangladesh, despite the difficult political situation, 
we have made tremendous progress on economic development 
including maternal and child health, food security, 
agricultural production and protecting the environment. We 
continue to focus on improving labor conditions including 
workplace safety and the capacity of labor organizations.
    In Nepal we are tackling the roots of poverty such as poor 
governance and the recurrent shocks both economic and physical 
that perpetuate its cycle. USAID has helped Nepal cut its 
poverty rate by 25 percent in recent years and provided funding 
to help the Election Commission and the challenge of human 
trafficking. Nepal is extremely vulnerable to climate change 
and natural disasters and we are helping address food 
shortages, vulnerability and natural resource degradation.
    In Sri Lanka the country is entering a new chapter 
following the recent historic election. The new government has 
asked the United States for help in restoring and strengthening 
its neglected democratic institutions and processes. However, 
since the budget request was completed prior to the election, 
USAID is exploring sources of additional support in order to 
seize on this unprecedented opening. We will continue engaging 
with you and your staff so we can chart the way forward 
together.
    Finally, in the Maldives our assistance will continue to 
mitigate the impacts of climate change on the economy and the 
way of life.
    Mr. Chairman, Mr. Ranking Member, members of the committee, 
in today's interconnected world South Asia's future is ever 
more important to our own. I appreciate the opportunity to 
testify today and I look forward to your counsel and questions.
    [The prepared statement of Mr. Stivers follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you. Time for our questions. I would like 
to direct my first question to Ms. Biswal. When we were on the 
codel a couple weeks ago to India, the potential of a bilateral 
investment treaty was one that dominated a lot of our 
conversations with the Prime Minister himself, some of his 
cabinet members as well as some of our American business folks 
over there.
    What are the prospects for that? What is the time frame? 
What are the impediments and how do we move past it? And along 
that same line, one of the other issues that came up was 
President Modi's ``Made in India'' campaign and how it 
potentially disadvantages U.S. businesses that want to invest 
in India. And I have heard of some American companies such as 
Amazon who have been unfairly disadvantaged in getting market 
access in the country. Are we looking into any arbitration 
options or alternatives for the region?
    And then my last question is also kind of economically 
related. It is both economically and environmentally related. 
But we were told while we were in Delhi that it is the most 
polluted city in the world surpassing even Beijing. And I am 
wondering, is there any strong ideas about exporting our 
abundant LNG here from our country potentially to India both as 
a way of helping them economically and getting good clean 
energy to deal with both their economic growth needs as well as 
their environmental and our environmental concerns with them? 
So could you address those three issues for me.
    Ms. Biswal. Well, thank you, Mr. Chairman. As you noted and 
as Ranking Member Sherman noted in your opening comments and in 
your question, the economic partnership with India is a very 
important one and we are very much interested in seeing India's 
economic rise and being a partner to India in that.
    American companies bring cutting-edge technology and best 
practices and are highly sought after in terms of investment 
and partnership in India. But they face certain impediments, 
and the focus on the bilateral investment treaty has long been 
as a mechanism to create the kind of enabling environment that 
provides the framework for greater ease of investing in and 
doing business in India.
    And with India having now concluded its own Model BIT 
framework, we are poised to be able to engage with the Indians 
and commence in negotiations on a bilateral investment treaty. 
There are ongoing conversations between the U.S. Trade 
Representative's office, the Department of State, and our 
Indian counterparts on launching into BIT negotiations. We want 
to make sure that any bilateral investment treaty is very high 
quality and high standard and reflects the expectations of our 
companies and the best practices that we have gleaned from our 
engagements around the world. We believe that that will clear 
the path for greater ease of dispute resolution, addressing 
issues of taxation and other things that impede investment in 
India.
    You made reference to challenges faced by companies like 
Amazon, and I know that with respect to things like e-commerce 
that this is in a developing field within India in terms of how 
to deal with the issues of Internet commerce and the tax 
implications. There is a pending case with respect to Amazon, 
but there is also a movement toward creating a standardized 
goods and services tax in India that can, I think, potentially 
create the broader framework for companies like Amazon on how 
things like e-commerce will be governed in terms of taxation. 
So we look forward to seeing forward progress on the GST and 
see how that can address this. I know that Finance Minister 
Arun Jaitley has opined on this issue as well, and the need to 
be able to create greater dependability and predictability with 
respect to the taxation issues.
    And finally, with respect to what we can do to support 
India's efforts to address pollution and air quality issues, 
LNG is certainly one area where in fact the first export 
licenses for American LNG were issued to a company that was 
exporting to India, and so we certainly see that as a 
particular avenue.
    We are also working across the board in other ways to 
address issues of environment and air quality. India has said 
that it is going to issue a uniform air quality index, 
measurement index. We have agreed in our climate and energy 
Memorandum of Understanding, that was agreed to during the 
President's visit, on creating an air quality working group to 
look at these issues and explore how we can partner, how we can 
work together. We also talked about addressing issues of 
emissions from heavy vehicles and other ways to reduce air 
pollution.
    So we look forward to bringing the kind of technical 
expertise and know-how, as well as the technology that American 
companies bring, to addressing these kinds of challenges.
    Mr. Salmon. Thank you.
    Mr. Sherman?
    Mr. Sherman. Thank you. I just want to first focus on the 
budget. You are asking for $383 million. Does that cover both 
diplomacy and aid, and does that cover all of South Asia or 
South Asia without Pakistan?
    Ms. Biswal. So the $383 million is the assistance budget. 
It includes the USAID development assistance programs and it 
also includes the security assistance programs and other 
assistance programs managed by the Department of State. It does 
not include the overall diplomatic operations and engagements 
that support our diplomatic engagement in the region.
    Mr. Sherman. And it does not include Pakistan?
    Ms. Biswal. And it does not include Afghanistan and 
Pakistan.
    Mr. Sherman. And how much, excluding Pakistan in this 
discussion, do we then spend on diplomacy in the area? And I 
realize that would just be on the Embassies in-country. 
Obviously you don't have a cost accountant going through Foggy 
Bottom.
    Ms. Biswal. I don't have that number at the top of my head 
in terms of the breakout specific to the South Asia DNCP 
component. I would be happy to get those numbers for you, Mr. 
Sherman.
    Mr. Sherman. Got you. We are looking at this bilateral 
investment treaty. I think it is important that you make sure 
that it is not just making India safe for offshoring jobs and 
that you look not only--because you are going to hear from the 
companies and they are going to equate, well, whatever has them 
make profits that must be good for America. I hope that you 
have the economic support to see whether this agreement will 
lead to jobs.
    The economic analysis of permanent MFN for China was large 
trade that would be balanced. Instead we have seen the American 
middle class crushed as a result of that bad decision. We 
certainly don't want to repeat it with regard to India.
    As to energy, you have got 300 million people in India 
without regular power. There is natural interest in India in 
the nuclear power, yet they have failed to attract U.S. 
suppliers to set up nuclear facilities. What does the U.S. need 
to do to get India to sign onto the convention on supplementary 
compensation, and to what extent had the Indians promised to do 
that or something similar as part of the 123 Agreement?
    Ms. Biswal. Thank you, Congressman. I think one of the big 
breakthroughs during the President's visit on Republic Day was 
the progress made on implementing the 123 Agreement, the Civil 
Nuclear Cooperation, and the breakthroughs were in two key 
areas. One was on creating the understandings and assurances on 
tracking fissile material that allow us to move forward and to 
be in compliance with our requirements with respect to tracking 
of fissile material.
    And the second was on this issue of nuclear liability and 
clarifications from the Government of India from the Prime 
Minister himself as well as the Foreign Minister about the 
liability for operators as opposed to for suppliers, which is 
largely in keeping with the conventional and supplementary 
compensation. That articulation by the highest levels of the 
Indian Government about its interpretation of Indian law with 
respect to how liability accrues is in keeping with the CSC and 
paves the way now for the Indian Parliament to ratify the CSC, 
which we hope that they will do in short order. That is 
something that is largely for the Indian system to take up. We 
are hopeful that that progress on ratification will be made in 
the near future.
    Mr. Sherman. So the ratification under these circumstances 
would provide the protection necessary for U.S. companies to 
operate?
    Ms. Biswal. It would provide the assurances of how India 
sees and accrues liability in the event of any kind of a 
happenstance. So it does therefore then guide how companies 
would see their own liabilities and how the courts would see 
and determine liability, we believe.
    Mr. Sherman. I want to go on. Just for the record, if you 
could give us a timeline about how the South and Central Asia 
Bureau is being restructured to include Afghanistan and 
Pakistan that would be helpful for our record.
    I want to shift over to Sri Lanka. We have witnessed a 
democratic change of government there and of course the end of 
the civil war, but parts of the country have yet to recover 
especially the north and eastern regions where the Tamil 
minority lives. What is the State Department doing to encourage 
the Sri Lanka to get the army to leave these occupied lands and 
to allow displaced persons to return?
    And what are the efforts, Jon, that you are making to 
rebuild the schools and hospitals that were destroyed in the 
northern and eastern parts of the country?
    Ms. Biswal. I will answer briefly and then turn to my 
colleague as well to chime in on the Sri Lanka support 
prospects and priorities.
    With respect to the bureaucratic restructuring that you 
referenced with respect to the South and Central Asia Bureau 
and the Special Representative for Afghanistan and Pakistan, 
this is something that we are looking at very closely. We have 
always felt and articulated that, at the right time, we wanted 
to reintegrate and combine these entities--which were very 
important at the time while we had an ongoing conflict and a 
very large and complex operation to manage--to be able to 
provide that dedicated management focus by creating a Special 
Representative's office. I think as we look at the transition 
in Afghanistan, we are looking to see in the near future how we 
bring that structure and reintegrate that into the Bureau. So 
that is something that I think we will be looking at and moving 
forward on in the months ahead.
    With respect to Sri Lanka, I think you are absolutely right 
to focus on some of the very deep challenges in terms of 
supporting reconciliation, and that is to address some of these 
longstanding issues of land. The government has actually set a 
fairly ambitious 100-day plan and has started down that path 
including, I believe, just in the past day or so there was an 
announcement in Jaffna by the government, by the commission on 
land that I believe they set up, on returning the initial 
parcels of land. We think that that is a good start and we know 
much, much more needs to be done. And the United States has 
said it has committed that Sri Lanka will not be walking down 
that path alone; that we are committed to helping them address 
some of these key issues so that there can be more meaningful 
reconciliation moving forward.
    But why don't I turn to Jon Stivers on that.
    Mr. Stivers. Thank you Ranking Member Sherman for that 
question and for your interest in U.S.-Sri Lankan relations and 
the plight of the Tamil community in northern Sri Lanka.
    The democratic election in Sri Lanka was really a testament 
to the Sri Lankan people who changed government at the ballot 
box in a nonviolent way in honor of their traditions, their 
longstanding democratic traditions. Shortly after the election 
we sent an interagency assessment team to Sri Lanka to really 
look at the reform agenda of the government and assess the 
needs of the Sri Lankan people moving forward. We found strong 
support for the reform agenda from the government.
    The government was elected with the support of the minority 
populations and we saw that land was an absolute key priority 
for the people there in Sri Lanka including accountability, 
decentralization and rebuilding of democratic institutions. We 
hope to support the elections process moving forward, as well 
as civil society and the vulnerable communities all over the 
country, and youth.
    We are looking closely at the assistance package moving 
forward both in the short term and the long term. We have 
briefed a number of your staffs on the findings of the 
assessment team, and we hope to work with Congress, get your 
input before decisions are made and move forward in a 
bipartisan way--Congress and executive branch working together.
    Mr. Salmon. Thank you.
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Biswal, I know it has been brought to your attention 
that there seems to be a serious issue with the seizure of 
Indian passports bearing a T visa issued by the United States 
to Indian nationals. I believe you have been apprised to that 
issue by us. I believe we have written to you. Can you please 
comment on it? This is very troubling. I mean here are people 
who have been victims of human trafficking. We give them a 
special status on their visa or their passport or both, and the 
Indian Government is seizing them.
    Ms. Biswal. Thank you, Congressman. This is an issue that 
has caused concern at the Department as well. The United States 
adopted the T visa status in line with our obligations under 
the Palermo Protocol to permit trafficking victims to remain in 
the United States in appropriate cases and to reunite with 
immediate family members. We have expressed our concern to the 
Government of India over this alleged policy, both here in 
Washington and in India through our Ambassador, and we continue 
to engage with the Indians on this issue.
    Shortly after learning of this new policy, our officials 
visited in New Delhi and met with the Ministry of External 
Affairs to gather additional information and to obtain a copy 
of this new policy. Our Consular Affairs Bureau, our Embassy 
officials, and I myself personally, have raised these issues 
with Indian officials both as part of our U.S.-India consular 
dialogue and as part of our ongoing diplomatic engagement.
    Mr. Connolly. What is the rationale you are given by the 
Indian Government?
    Ms. Biswal. The Indian Government has said that they 
believe that our issuing visas to their citizens on issues 
where they believe there should be a domestic judicial process 
to address these concerns--that they don't support that. 
However, I would add that this issue has received significant 
domestic attention in India as well and has already been 
challenged in the Indian courts.
    At the state level, the State of Kerala's High Court has 
recently ruled that India's ban on T visas violates fundamental 
rights guaranteed by India's constitution. So I think that this 
is a policy that is under considerable debate and discussion 
within India as well as being the subject of U.S.-India 
conversations.
    Mr. Connolly. All right. Well, I would appreciate you 
responding in writing to the requests that have been given to 
you by us.
    And Mr. Chairman, I would ask for unanimous consent that a 
document, a one-page document, issued by the Intelligence 
Bureau of the Ministry of Home Affairs with the Government of 
India regarding this issue be formally entered into the record.
    Mr. Salmon. Without objection, so ordered.
    Mr. Connolly. I thank my friend.
    Final question and switching gears entirely, your turn, Mr. 
Stivers. I mentioned in my brief opening remarks about my 
concern about, well, my desire to see more metrics and more of 
a narrative about the cumulative positive impact, hopefully, of 
our economic investments in the form of foreign aid especially 
in South Asia.
    I want to give you the opportunity--I know you are new, but 
you are not new to the subject matter and so forth--your 
observations about that.
    Mr. Stivers. Thank you, Mr. Connolly, for that question and 
for your interest in foreign assistance reform and how our 
foreign assistance can operate better. The United States--the 
administration and Congress--we do have to tell a better story 
about how our less than 1 percent of the Federal budget really 
promotes our security, stability in the world, our prosperity 
in terms of economic growth, and promotes our democratic 
values. Development is absolutely key to the Asia Rebalance 
because it engages with the people. It is not just government-
to-government relations, but it engages the people and it 
tackles some of the challenges in their lives.
    And so the narrative about why that is important to all 
these important issues in the world is really a story that 
needs to be told in a much better way. Empowering the reformers 
who are trying to create change in this country. It is 
democratic reformers, but it is also women reformers who are 
trying to change traditions that are not fair and are unjust.
    And so to the extent that our assistance is promoting these 
values we have to talk about that. More specifically, our 
health investments especially in the regions--especially in 
Bangladesh and Nepal--are really achieving tremendous results. 
In Bangladesh we have helped them achieve 60 percent decreases 
in child and maternal mortality in recent years. In Nepal they 
have had a successful election; they are in the difficult 
process right now of writing a constitution. But there have 
been tremendous successes on nutrition. Same goes with India. 
And so in my written testimony I went more through some of 
those specific examples.
    On terms of India and Bangladesh, they are meeting their 
Millennium Development Goals; they are cutting poverty; they 
are really helping people and they are moving their countries 
along with relatively high economic growth rates. And we look 
forward to working with you and telling that story especially 
in the consideration of the budget.
    Mr. Salmon. Thank you.
    Ms. Meng?
    Ms. Meng. Thank you.
    As I mentioned earlier, we consider the country of 
Bangladesh a good friend of the United States. It is a 
democratic, moderate country in the region and we have happily 
seen it grow in economic power.
    However, Mr. Stivers, as you said some of the success in 
Bangladesh has been achieved despite a difficult political 
situation. What can the U.S. Government do to encourage a de-
escalation in violence and political posturing? I have heard 
conflicting reports that the situation has begun to improve, 
and if that is true what can we do to continue on that path? 
Because there is no guarantee a de-escalation will be 
sustained.
    And in relation to that has the ongoing political standoff 
between the ruling Awami League and the BNP opposition had any 
adverse effects on the implementation of U.S. assistance 
programs in Bangladesh?
    Mr. Stivers. Thank you for that question. Despite the 
political upheaval, Bangladesh has been an excellent partner 
with achievements in economic growth and health and 
agriculture, and we must stay engaged. We know that violence 
and governance challenges have the potential to threaten a lot 
of the economic development gains that have been made.
    The Fiscal Year 2016 budget, it includes a $10-million 
increase in support for civil society in Bangladesh. That is 
one of the larger increases within the budget for South Asia. 
Our support for civil society helps them push back on some of 
the negative trends that have been occurring politically.
    But in terms of our development successes, I mentioned the 
60 percent declines in maternal and child mortality. We have 
introduced new fertilizer techniques that have increased rice 
yields by 20 percent, and better management of forests and 
wetlands. In terms of the economic development side for 
Bangladesh, there has been tremendous progress and so far that 
progress has not been threatened, but we must stay engaged and 
it is important for the political impasse too to hopefully be 
resolved soon.
    Ms. Biswal. If I could add to what my colleague has said on 
the assistance side, we have been very engaged diplomatically 
on urging a lessening in the violence and an improvement in 
terms of the political climate in Dhaka, where Ambassador 
Marcia Bernicat working with her colleagues in the diplomatic 
community, ten Chiefs of Missions working together, met with 
leadership in both parties and with the government to address 
our concerns and to convey our concerns about, one, the level 
of violence, and two, creating conditions for greater political 
dialogue and to create a more inclusive political environment.
    We have been quite clear both privately and publicly about 
the fact that we believe there is no place for violent protest 
in political discourse and have urged that any political 
parties that have been party to such violent protest, that they 
have to first and foremost reject violence, and secondly, we 
have been quite clear that we need to see some space for a 
political dialogue and have urged the government to try to 
create that space.
    I do agree, Congresswoman, that there has been a decrease 
in violence over the past couple of weeks and we hope that that 
trend continues, and we will continue to work with our 
Bangladeshi friends. Because at the end of the day, we all want 
to see Bangladesh continue to move forward as a stable, secure 
and prosperous country that is able to provide opportunity for 
all of its citizens and to be able to continue to play the 
strong and constructive role that it plays in advancing global 
security through its contributions in peacekeeping and through 
other ways. So this is an issue where we are very intensively 
engaged in trying to support improvements in that political 
environment.
    Ms. Meng. Thank you. And I know I am running out of time, 
but if you could address this maybe in a later testimony.
    Can you expand on initiatives in India in relation to 
women's and children's health, and also initiatives to decrease 
reports of violence against women?
    Ms. Biswal. Jon, do you want to----
    Mr. Stivers. Sure, sure. Well, thank you for that question. 
Women's empowerment is a big challenge in India and indeed all 
of Asia, and gender violence certainly is a significant 
challenge. That it is one for moral reasons of course, but it 
also holds back development of the country and its economic 
growth and prosperity.
    As we know, empowerment of women is key to a healthy and 
strong country and economy. USAID has a number of initiatives 
related to that, to gender violence. We have a ``Safe Cities'' 
program which includes gender in urban planning and 
infrastructure, and we have also helped with a film called 
``Girl Rising,'' which tells the stories of about nine women, 
helps raise awareness, and we have helped in terms of local 
language release and teaching materials. It has raised 
awareness and helps combat some of the negative issues around 
that in India.
    Ms. Biswal. I would also just add that some of the most 
powerful voices on women's empowerment and women's security are 
Indian voices and that there has been a tremendous amount of 
media attention and focus within civil society and within the 
business community in India. And our goal is to support Indian 
efforts and Indian initiatives because we believe that there is 
very strong leadership emerging in India to address these 
issues.
    Mr. Salmon. Thank you.
    Mr. Bera?
    Mr. Bera. Thank you, Mr. Chairman and Ranking Member, and 
thank the witnesses. Often when we are looking at the U.S.-
India relationship we focus on some of the challenges, and I am 
actually going to shift this because there are a lot of 
positive things that are really happening in the relationship.
    In my opening comments I mentioned raising the FDI 
insurance caps. That is a positive step. That is something we 
have talked about for a long time and I think we should applaud 
the Modi administration for taking that step which will 
certainly help investment flows. I think tackling issues like 
introducing the land acquisition bill in India is a positive 
step, not an easy step but a positive step. So again I think we 
should applaud the Modi administration for that.
    Looking at some of India's ascension going from a recipient 
nation to a donor nation, particularly when I look at some of 
the work they are doing in Africa, I think, is something that 
we should applaud. And in fact, I think, as we look at our 
strategy within USAID, the Indian diaspora has a long history 
in Africa and in fact may have a better understanding of 
African politics and culture and can very much be a strategic 
partner here.
    Mr. Stivers, in your written testimony I am glad you gave a 
shout-out to the University of California Davis, my home 
institution, and some of the work that they are doing helping 
address the food security issues both in India, but then also 
partnering with India in addressing some of the food security 
issues in Africa. There is real opportunities for our 
institutions of higher education, our research institutions to 
work with India.
    Now shifting to next steps. How do we continue to move 
forward? Secretary Biswal, you touched on making sure we move 
forward and finalize the bilateral investment treaty. I think 
that is a very important aspect that will then help resolve 
some of these issues for American companies and so forth. And I 
really do think both from our end making sure USGR is focused 
on getting a BIT signed, continuing to use USAID to empower 
India to again move from a recipient nation to a donor nation.
    And USAID has a very interesting program that was announced 
by the President in January when he was there, the Diaspora 
Bonds. The Prime Minister, in his comments here in September 
when he was in New York and Washington, DC, clearly asked the 
Indian-American diaspora that has done so well here to take the 
lead in continuing to move the relationship forward. Clearly 
there is a role in the diaspora that wants to see this 
relationship come together. And I would be curious, this is a 
very innovative and new program, if you could comment on the 
Diaspora Bonds.
    Mr. Stivers. Sure. Thank you, Congressman Bera, and thank 
you for your leadership on U.S.-Indian relations which is so 
important because we have so many mutual interests, mutual 
democratic values where we can really work together promote a 
lot of good in this world. And I think that President Obama and 
Prime Minister Modi are really taking this relationship to a 
new level.
    In terms of the Diaspora Initiative, it is an innovative 
assistance program. The 3 million Indian-Americans who are 
living in the U.S. know how important that relationship is. And 
the initiative as you mentioned it partners with the Calvert 
Fund and private Indian financial institutions to really 
harness the investment potential of Indian-Americans living in 
the U.S. to address some of the social challenges that not just 
India faces but the development challenges that we have 
globally. And it is a very important initiative and thank you 
for mentioning it.
    Mr. Bera. Absolutely. And another positive is you are 
getting the framework for the DTTI engaged on the defensive 
side, the defense framework. I think that is a positive now 
continuing to move forward on aircraft carrier technology, on 
the pathfinder projects and so forth. Again those are some low-
hanging fruit that are both in our interests as we see a strong 
India and its presence in the Indian Ocean.
    Secretary Biswal, I would be curious about your thoughts 
about the potentials here.
    Ms. Biswal. Well, thank you very much, Congressman. Clearly 
India and India's rise as a net security provider across the 
Indian Ocean region is going to be of growing importance. We 
want to have partners that we can work with that share our 
goals and values in terms of the global order and the rules 
based world that we want to see, and we know that in order to 
bring that about we need to have partner countries that can do 
that. And investing in India's capabilities is profoundly in 
our self interest in that sense.
    The DTTI initiative is really focused on again advancing 
those kinds of efforts that bring Indian capabilities and 
really look toward advancing interoperability between our two 
militaries so that we can continue to deepen the partnership. 
India is taking on a greater role in maritime security on 
addressing issues like piracy and in creating the environment 
for safe commerce to occur. And so in DTTI we have seen in 
looking at carrier technology, in looking at things like the 
pathfinder projects and things like UAVs and such, we are 
looking at how we can invest in those capabilities. I think 
Undersecretary Kendall was just there and has been making good 
progress in that area.
    Mr. Bera. Great. So again this is an exciting time in the 
relationship. Undoubtedly we will encounter challenges on both 
sides of the partnership, but if we keep our eyes on the 
broader, longer term goal this really can be the defining 
partnership in this century. So thank you.
    Thank you, Mr. Chairman.
    Mr. Salmon. I thank both Ms. Biswal and Mr. Stivers for 
coming and doing a very, very good job expressing the 
priorities, and we really appreciate your willingness to work 
closely with us as we try to conduct one of our most important 
functions and that is oversight. So thank you very, very much, 
and it is great to see that people move from here and go on to 
the other branch to live very successful careers. So thank you.
    Mr. Sherman. I think this demonstrates that when people 
with experience in the House move into the executive branch, 
the executive branch is the clear winner. And I yield back.
    Mr. Salmon. Thank you. This hearing is now concluded. Thank 
you.
    [Whereupon, at 12:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                 Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
Material submitted for the record by the Honorable Gerald E. Connolly, 
     a Representative in Congress from the Commonwealth of Virginia

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
